STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

May 7, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re:

Roman Catholic Diocese of Albany v. Lacewell,
No. 20-1501

Dear Mr. Harris:
I am counsel for respondents Superintendent Linda A. Lacewell and the
New York State Department of Financial Services in this case. I write to request
an extension of time to oppose the petition for a writ of certiorari in this matter.
The current deadline is May 27, 2021, and respondents Lacewell and the New
York State Department of Financial Services respectfully seek an extension of
thirty days. A thirty-day extension would make the opposition due Monday, June
28, 2021.
The extension is warranted because of the press of other matters, including
matters before this Court, that require attention in the same timeframe.
Thank you for your consideration.
Respectfully submitted,
BARBARA D. UNDERWOOD
Solicitor General

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

cc (by U.S. Mail):
Noel J. Francisco
(counsel for petitioners)
Keith B. Caughlin
(counsel for respondent Murnane Building Contractors, Inc.)

2

